GR-40-98-015
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Grant to the Belleair Beach, Florida, Police Department
 
GR-40-98-015
June 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services
(COPS), to the Belleair Beach, Florida, Police Department (grantee). The grantee received
a $75,000 grant to hire one police officer under the Funding Accelerated for Smaller Towns
program. COPS awarded the grant to increase the number of officers interacting directly
with members of the community.
Due to the grantee's failure to meet the terms and conditions of the grant, we are
questioning $44,019 in funds already received under the grant. In addition, the remaining
$30,981 in grant funds should be withdrawn and awarded to another grantee. 
In brief, our audit determined the grantee:


- claimed $4,477 in excess salaries and fringe benefits above the amounts authorized by
    the Office of Justice Programs (OJP).
- supplanted Federal funds of $2,085.
- used $17,057 previously budgeted for law enforcement as the local match. 
- did not make a good faith effort from the beginning of the grant to retain the
    officer after Federal funds expired. As such, costs of $44,019 were unsupported.
- submitted some monitoring reports to OJP late, and incorrectly reported the
    total program outlays and Federal share of outlays. 

 
#####